    ANNUAL ACCOUNTING AND

AUTHENTICATION OF DRUG CONTROL 

FUNDS AND RELATED PERFORMANCE

       FISCAL YEAR 2011

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


               Report 12-11

               January 2012

  ANNUAL ACCOUNTING AND AUTHENTICATION OF

 DRUG CONTROL FUNDS AND RELATED PERFORMANCE

               FISCAL YEAR 2011


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This report contains the attestation review reports of the
U.S. Department of Justice’s Drug Enforcement Administration, Federal
Bureau of Prisons, National Drug Intelligence Center, Office of Justice
Programs, and Organized Crime Drug Enforcement Task Forces Program’s
annual accounting and authentication of drug control funds and related
performance for the fiscal year ended September 30, 2011. The Office of
the Inspector General performed the attestation reviews. The report and
annual detailed accounting of funds obligated by each drug control program
agency is required by 21 U.S.C. §1704(d), as implemented by the Office of
National Drug Control Policy Circular, Drug Control Accounting, dated
May 1, 2007.

      The Office of the Inspector General prepared the reports in accordance
with attestation standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. An attestation
review is substantially less in scope than an examination and, therefore,
does not result in the expression of an opinion. We reported that nothing
came to our attention that caused us to believe the submissions were not
presented, in all material respects, in accordance with the requirements of
the Office of National Drug Control Policy Circular, and as otherwise agreed
to with the Office of National Drug Control Policy.
